OFFICE OF THE ATTORNEY GENERAL
CRIMINAL APPEALS

Concourse Center 4
3507 E. Frontage Road, Suite 200
‘Tampa, FL 33607-7013

 

ASHLEY MOODY Phone (813) 287-7900
ATTORNEY GENERAL Fax (813) 281-5500
STATE OF FLORIDA Attp.//weww.myfloridal

 

September 14, 2021

Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.

Washington, DC 20543

RE: CASE NAME: Luke Edward Fleming v. State of Florida
Case No. 21-5380

WAIVER

Dear Mr. Harris:

Respondent, State of Florida, does not intend to file a response to the petition in the
above captioned case, unless requested so to do by the Court. This is not a case in which
the death penalty has been imposed.

Please enter my appearance as Counsel of Record for all respondents in this case.
Sincerely,

ASHLEY MOODY
ATTORNEY GENERAL

C. Suzanne Bechard

Chief - Assistant Attorney General

Bureau Chief, Tampa Criminal Appeals
CarlaSuzanne.Bechard@myfloridalegal.com

/gc
ce: Michael Ufferman, Esq., Michael Ufferman Law Firm, P.A., 2022-1 Raymond

Diehl Road, Tallahassee, FL 32308
eservice: ufferman@uffermanlaw.com
